 
 
 

        Semiannual Report
         to the Congress




    Office of Inspector General
               for the
    Railroad Retirement Board




    April 1, 2010 to September 30, 2010
                 UNITED STATES RAILROAD RETIREMENT BOARD

                            OFFICE OF INSPECTOR GENERAL


                                    October 29, 2010

The Honorable Michael S. Schwartz, Chairman
Railroad Retirement Board
844 North Rush Street
Chicago, Illinois 60611-2092

Dear Mr. Schwartz:

I am pleased to submit our Semiannual Report to the Congress. This report
provides a descriptive summary of our activities and accomplishments during the
period of April 1, 2010 through September 30, 2010. This report is submitted in
accordance with Section 5 of the Inspector General Act of 1978, as amended.
The Act requires that you transmit this report to the appropriate Congressional
committees and subcommittees within 30 days.

During this reporting period, we issued the following audits:

   •   Review of Statistical Methods Employed in the Financial Interchange
       Determination;

   •   Review of the Technical Approach and Methodology Used to Determine
       the Annual Financial Interchange Amount for the Year Ended
       September 30, 2008;

   •   The Railroad Retirement Board’s Progress in Implementing Federal
       Information Security Management Act Requirements;

   •   Audit of Internal Controls over Medicare Premium Transfers Between the
       Railroad Retirement Board and Centers for Medicare and Medicaid
       Services;

   •   Review of the Accuracy of the Financial Interchange as Executed for the
       Year Ended September 30, 2008;

   •   Audit of Unilateral Disability Freeze Determinations;

   •   Audit of the Account Benefits Ratio; and

   •   Railroad Medicare Services Billed with Dates of Service after the
       Beneficiaries’ Dates of Death.


844 N RUSH STREET CHICAGO IL 60611-2092                           Printed on recycled paper
Our criminal investigators achieved 5 arrests, 22 indictments and/or informations,
31 criminal convictions, 9 civil judgments, and financial accomplishments totaling
over $27.6 million including total fraud amounts from joint investigations.

The Office of Inspector General sincerely appreciates the ongoing assistance
extended to our staff during the performance of their audits and investigations.
We look forward to a continued cooperative relationship.

                                                Sincerely,

                                                Original Signed by
                                                William Tebbe for

                                                Martin J. Dickman
                                                Inspector General
TABLE OF CONTENTS
 
INTRODUCTION ............................................................................................................. 1
    Railroad Retirement Board .......................................................................................... 1
    Railroad Retirement Board Members .......................................................................... 1
EXECUTIVE SUMMARY ................................................................................................ 2
    Office of Inspector General .......................................................................................... 2
    Office of Audit .............................................................................................................. 2
    Office of Investigations ................................................................................................ 3
APRIL 1, 2010 – SEPTEMBER 30, 2010 ACCOMPLISHMENTS .................................. 5
    Office of Audit .............................................................................................................. 5
       Financial Interchange Review .................................................................................. 5
       The Railroad Retirement Board’s Progress in Implementing Federal Information
       Security Management Act Requirements – May 19, 2010 ....................................... 6
       Audit of Internal Controls over Medicare Premium Transfers Between the Railroad
       Retirement Board and Centers for Medicare and Medicaid Services – May 21, 2010
       ................................................................................................................................. 7
       Audit of Unilateral Disability Freeze Determinations– August 12, 2010 ................... 8
       Audit of the Account Benefits Ratio – September 29, 2010 ................................... 10
       Railroad Medicare Services Billed with Dates of Service after the Beneficiaries’
       Date of Death – September 30, 2010..................................................................... 11
       Management Decisions and Implementation ......................................................... 12
    Office of Investigations .............................................................................................. 13
       Investigative Accomplishments .............................................................................. 13
       Current Caseload ................................................................................................... 14
    Representative Investigations .................................................................................... 15
       Disability Investigations .......................................................................................... 15
       Unemployment - Sickness Insurance Investigations .............................................. 16
       Retirement-Survivor Benefits and Representative Payee Investigations ............... 17
       Railroad Medicare Investigations ........................................................................... 19
       Civil Enforcement Results ...................................................................................... 21
    Hotline Contacts ........................................................................................................ 22
OTHER OVERSIGHT ACTIVITIES ............................................................................... 23
       American Recovery and Reinvestment Act of 2009 ............................................... 23
       Occupational Disability Program ............................................................................ 23
       Signature Proxy by Attestation ............................................................................... 24



  Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
TABLE OF CONTENTS

STRATEGIC PLAN ....................................................................................................... 24
OUTREACH ACTIVITIES ............................................................................................. 25
OPERATIONAL ISSUES .............................................................................................. 26
      National Railroad Investment Trust ........................................................................ 26
LEGISLATIVE & REGULATORY REVIEW .................................................................. 27
APPENDICES ............................................................................................................... 28
      Appendix A – Office of Inspector General Reports and Other Publicly Available
      Documents Issued ................................................................................................. 29
      Appendix B – Audit Reports with Questioned Costs or with Recommendations That
      Funds be Put to Better Use .................................................................................... 30
      Appendix C – Report on Receivables, Waivers, and Recoveries ........................... 31
      Appendix D – Significant Matters ........................................................................... 33
      Appendix E – Peer Reviews ................................................................................... 34
      Appendix F – Management Reports....................................................................... 36
      Appendix G – Reporting Requirements.................................................................. 42
      Appendix H – Acronyms ......................................................................................... 43
      Appendix I – Legal References .............................................................................. 44 




  Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
                             Office of Inspector General
                         for the Railroad Retirement Board



       INTRODUCTION

       Railroad Retirement Board

 The Railroad Retirement Board (RRB) is an independent agency in the executive
 branch of the federal government. The RRB administers comprehensive disability,
 retirement-survivor, and unemployment-sickness insurance benefit programs for the
 nation's railroad workers and their families. These programs are codified under the
 Railroad Retirement Act (RRA) and the Railroad Unemployment Insurance Act (RUIA),
 respectively. The agency’s central mission is to pay accurate and timely benefits under
 the RRA and the RUIA.

 During fiscal year (FY) 2009, the RRB paid approximately $10.5 billion in retirement and
 survivor benefits to 589,000 beneficiaries. The RRB also paid roughly $154.1 million in
 net unemployment and sickness insurance benefits to almost 24,000 unemployment
 insurance beneficiaries and 18,000 sickness insurance beneficiaries.

 The RRB has administrative responsibilities for certain benefit payments under the
 Social Security Act and the Medicare program for eligible RRB beneficiaries.
 Additionally, the RRB contracts with a separate carrier to process Railroad Medicare
 Part B claims, the physician service aspect of the Medicare program, for qualified
 railroad beneficiaries.  As of September 30, 2009, there were approximately 468,000
 such beneficiaries enrolled in the Railroad Medicare Part B program. During FY 2009,
 the Medicare Part B contractor paid over $900 million in medical insurance benefits.

       Railroad Retirement Board Members

 The Board consists of three members who are appointed, with the advice and consent
 of the Senate, by the President of the United States. One Board member is appointed
 upon the recommendation of railroad employers, another member is appointed upon the
 recommendation of railroad labor organizations, and the third, who is the Chairman, is
 appointed to represent the public’s interest. Board Members’ terms are five years in
 length and expire in staggered years.




         Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
1
                             Office of Inspector General
                         for the Railroad Retirement Board



         EXECUTIVE SUMMARY

         Office of Inspector General

 The Railroad Retirement Solvency Act of 1983 amended the RRA to provide for an
 Office of Inspector General for the RRB (OIG). The 1988 amendments to the Inspector
 General Act added the RRB to the list of covered agencies.

 The Inspector General is a Presidential Appointee, with Senate confirmation, who
 serves as an independent and objective voice to both the RRB Board Members and the
 Congress. It is the Inspector General’s responsibility to promote economy, efficiency,
 and effectiveness in the RRB’s programs and operations. To that end, the OIG
 conducts audits/evaluations, management reviews, and inspections of the RRB’s
 programs and operations. As a product of its efforts, the OIG offers recommendations
 for improvement to RRB management. The OIG also identifies and investigates cases
 of waste, fraud, and abuse in the RRB’s programs and operations. The OIG works
 closely with federal prosecutors and makes the appropriate referrals for criminal
 prosecution, civil prosecution, monetary recovery, or administrative sanctions.

 The OIG has approximately 50 employees assigned to three operational components:
 the immediate Office of the Inspector General, the Office of Audit, and the Office of
 Investigations. The OIG conducts operations from several locations: the RRB
 headquarters in Chicago, Illinois; an investigative field office in Philadelphia,
 Pennsylvania; and domicile investigative offices in Arlington, Virginia; Houston, Texas;
 Miami, Florida; and San Diego, California. These domicile offices provide increased
 investigative presence and aide in the effective and efficient coordination of joint
 investigations with other Inspector General offices and traditional law enforcement
 agencies.

         Office of Audit

 The Office of Audit (OA) conducts financial, performance, and compliance audits and
 evaluations of the RRB’s programs and operations.

 During this reporting period, OA:

     •   published three reports prepared by KPMG LLP (KPMG), under contract with the
         OIG, entitled Review of Statistical Methods Employed in the Financial
         Interchange Determination, Review of the Technical Approach and Methodology
         Used to Determine the Annual Financial Interchange Amount for the Year Ended



          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
2
                               Office of Inspector General
                           for the Railroad Retirement Board


         September 30, 2008, and Review of the Accuracy of the Financial Interchange as
         Executed for the Year Ended September 30, 2008;

     •   completed an analysis of The Railroad Retirement Board’s Progress in
         Implementing Federal Information Security Management Act Requirements;

     •   published their Audit of Internal Controls over Medicare Premium Transfers
         Between the Railroad Retirement Board and Centers for Medicare and Medicaid
         Services;

     •   published the results of their unilateral disability freeze determinations audit;

     •   examined the account benefits ratio;

     •   audited Railroad Medicare services billed with dates of service after the
         beneficiaries’ date of death; and

     •   completed a peer review of the audit organization for the Federal Deposit
         Insurance Corporation, Office of Inspector General.

 Additionally, OA began their annual audit of the RRB’s financial statements pursuant to
 the Accountability Tax Dollars Act of 2002 and their annual audit of information security
 pursuant to the requirements of the Federal Information Security Management Act of
 2002.

 All audits completed during this reporting period are discussed in further detail on pages
 5 through 11 and the full texts are available on our website at www.rrb.gov/oig.

         Office of Investigations
 The Office of Investigations (OI) focuses its efforts on identifying, investigating, and
 presenting RRB benefit fraud cases for prosecution. OI conducts investigations
 throughout the United States relating to:

     •   the fraudulent receipt of RRB disability, unemployment-sickness, and retirement-
         survivor benefits;

     •   Railroad Medicare fraud;

     •   false reporting by railroad employers; and

     •   criminal violations and misconduct by RRB personnel.


          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
3
                                                     Office of Inspector General
                                                 for the Railroad Retirement Board


 Investigative efforts can result in criminal convictions; civil judgments and penalties;
 administrative recovery of program benefit funds; and/or administrative sanctions.
  
 From April 1, 2010 through September 30, 2010, OI achieved:

       •      5 arrests;
       •      22 indictments and/or informations;
       •      31 convictions;
       •      9 civil judgments;
       •      33 referrals to the Department of Justice; and
       •      $27.6 million 1 in financial accomplishments.

 Defendants, in the aggregate, were sentenced to more than 38 years in prison, 68 years
 of probation, 3 years of suspended sentences, and 271 hours of community service.

 Representative fraud cases are discussed on pages 15 through 21.




                                                        
 1
   The total amount of financial accomplishments reflect fraud amounts related to programs administered
 exclusively by the RRB and fraud amounts from other federal programs such as Medicare or Social Security
 which were included in the disposition resulting from the investigation.



                 Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
4
                              Office of Inspector General
                          for the Railroad Retirement Board



         APRIL 1, 2010 – SEPTEMBER 30, 2010
         ACCOMPLISHMENTS

         Office of Audit

 Congress established the OIG to provide independent oversight of the RRB. Within the
 OIG, the mission of OA is to promote economy, efficiency, and effectiveness in the
 administration of the RRB’s programs and operations; and to detect and prevent fraud,
 waste, and abuse. Through the Inspector General, OA keeps Board Members and the
 Congress informed of current and potential problems and deficiencies in the RRB’s
 operations. OA also tracks the status of progress towards corrective action.

 Brief summaries of all audits completed during this semiannual reporting period follow.

         Financial Interchange Review

 As part of their oversight activities, OA contracted with KPMG to assist in the evaluation
 of the statistical methods employed in the Financial Interchange (FI) between the RRB
 and both the Social Security Administration (SSA) and the Centers for Medicare and
 Medicaid Services (CMS) for the year ended September 30, 2008. As a result of this
 contract, OA published the following KPMG reports:

     •   Review of Statistical Methods Employed in the Financial Interchange
         Determination – May 4, 2010; 

     •   Review of the Technical Approach and Methodology Used to Determine the
         Annual Financial Interchange Amount for the Year Ended September 30, 2008 –
         May 19, 2010; and

     •   Review of the Accuracy of the Financial Interchange as Executed for the Year
         Ended September 30, 2008 – May 25, 2010. 

 The FI is a collective term that describes a series of legally mandated periodic fund
 transfers between the RRB, SSA, CMS, and the Treasury. The amounts transferred are
 the result of a complex statistical projection. The RRB’s Bureau of Actuary is
 responsible for determining the amount to be transferred each year. In June 2009, the
 RRB received a net transfer for the FY 2008 FI settlement of approximately $4.0 billion,
 representing roughly 37% of RRB financing sources for that year, before considering
 the reduction in the reported value of the National Railroad Retirement Investment Trust
 assets.


          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
5
                              Office of Inspector General
                          for the Railroad Retirement Board


 During the course of their review, KPMG performed a variety of complex statistical
 analysis and concluded, in part, that:

     •   the FI methodology, as designed by the RRB, adheres to the requirements set
         forth in the RRA;

     •   the RRB’s FI beneficiary sample is representative of the RRA beneficiary
         population;

     •   the RRB benefits sample size overall is sufficient to achieve the required
         sampling precision;

     •   the RRB’s extrapolation implementation is consistent with the original sample
         design and sample stratification; and

     •   the RRB’s projection produces a reliable total benefit amount.

 KPMG further noted that:

     •   it is not possible to examine more than the most recent year’s FI sample in
         subsequent years; and

     •   design, implementation, and execution are not documented such that the FI
         calculations can be replicated by someone who is unfamiliar with the process.

 Complete texts for all three reviews are available in the library section of OIG’s website
 at www.rrb.gov/oig.

         The Railroad Retirement Board’s Progress in
         Implementing Federal Information Security Management
         Act Requirements – May 19, 2010

 OA’s evaluation entitled The Railroad Retirement Board’s Progress in Implementing
 Federal Information Security Management Act Requirements was published on
 May 19, 2010. The objective of this evaluation was to determine the progress made by
 the RRB in implementing the security program required by the Federal Information
 Security Management Act of 2002 (FISMA).




          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
6
                              Office of Inspector General
                          for the Railroad Retirement Board


 FISMA requires each agency to develop, document, and implement an agency-wide
 information security program for the information and information systems that support
 the operations and assets of the agency. It also requires, in pertinent part:

     •   annual agency program reviews;

     •   Inspector General security evaluations;

     •   annual reports of agency activities performed in accordance with the Privacy Act;
         and

     •   Inspector General assessments of the agency’s privacy program and privacy
         impact assessment process.

 The OIG first began evaluating the RRB’s information security program in FY 2000.
 These past audits and evaluations by the OIG, and contractors hired by the OIG, have
 disclosed weaknesses throughout the RRB’s information security program. Over the
 past ten years, they have made steady progress in correcting previously reported
 deficiencies in their information security and privacy programs. Additionally, the RRB is
 currently addressing important outstanding audit recommendations that will continue to
 strengthen the overall security and privacy programs.

 The full text of OA’s evaluation is located in the library section of OIG’s website
 at www.rrb.gov/oig.

         Audit of Internal Controls over Medicare Premium
         Transfers Between the Railroad Retirement Board and
         Centers for Medicare and Medicaid Services –
         May 21, 2010
 The RRB administers retirement and survivor benefit programs for railroad workers and
 their families that provide income protection for aged and disabled annuitants. RRB
 annuitants receive monthly benefit payments and the RRB has authority to determine
 which RRB annuitants meet eligibility requirements for Medicare. Medicare premium
 amounts are established by law and the RRB withholds Medicare Part B premiums from
 the annuitant’s monthly benefit payment. The RRB periodically transfers the premiums
 that were withheld to CMS. Likewise, CMS reimburses the RRB when retroactive
 Medicare premium adjustments occur and when excessive premiums may have been
 transferred. The RRB Medicare premium withholdings for FYs 2009 and 2008 totaled
 approximately $488 million and $490 million, respectively.




          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
7
                              Office of Inspector General
                          for the Railroad Retirement Board


 During this semiannual reporting period, the OIG conducted a limited scope audit with
 the following objectives:

     •   to determine if internal controls were properly designed and placed in operation
         to ensure the accuracy, timeliness, and completeness of Medicare premium fund
         transfers between the RRB and CMS; and

     •   to determine the completeness of the controls used to identify and correct the
         Medicare refunds and excessive premium payments.

 OA determined that the RRB’s internal controls over Medicare premium transfers:

     •   are not properly designed or placed in operation to ensure the accuracy,
         timeliness, and completeness of Medicare premium fund transfers between the
         RRB and CMS; and

     •   were not properly designed to ensure the completeness of the identification and
         correction of the Medicare refunds and the excessive premium payments.

 OA’s tests disclosed many inaccuracies in the funds transfer requests which totaled
 more than $3.2 million from the period October 2009 through December 2009. OA
 made 14 recommendations for improvement. Full details from this audit are posted in
 the library section of OIG’s website at www.rrb.gov/oig.

         Audit of Unilateral Disability Freeze Determinations–
         August 12, 2010
 Under the RRA, every application for a disability annuity is also an application under the
 Social Security Act for a period of disability, commonly termed as a “freeze.” The freeze
 portion of the Social Security Act protects disabled workers and their families against
 the loss of, or the reduction in, benefits because of the worker’s disability. When a
 freeze is established, the worker’s wage record is frozen and the period during which
 he/she is disabled and not likely to have earnings is excluded, to the worker’s
 advantage, when determining the insured status and benefit amounts. To be eligible for
 a disability freeze, the applicant must meet both a disability and an earnings
 requirement.

 In general, the RRB makes freeze decisions jointly with the SSA when there is potential
 entitlement to social security benefits. If, after attempts to resolve differences, a
 disagreement still exists between the RRB and the SSA, the RRB’s Claims Examiners
 may decide to make an independent determination to grant the freeze, referred to as a
 unilateral freeze decision. The grant of a disability freeze by the RRB’s Bureau of


          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
8
                               Office of Inspector General
                           for the Railroad Retirement Board


 Hearings and Appeals or the three-member Board would also be considered a unilateral
 freeze decision.

 Although unilateral freeze decisions represent a relatively small portion of all disability
 freezes granted by the RRB, this audit was performed to answer questions raised about
 the RRB’s unilateral disability freeze process after the press criticized the RRB’s
 decisions to grant disability benefits to some Long Island Rail Road employees.
 The objectives of this audit were to determine the:

     •   statutory authority under which the RRB grants a period of disability (disability
         freeze);

     •   circumstances under which the freeze determination process results in a
         unilateral award;

     •   consistency of policies and procedure requirements that apply to single, joint,
         and unilateral freeze awards; and

     •   impact of unilateral freeze decisions on the RRA trust funds.

 OA found that:

     •   the RRB has the authority to unilaterally award disability freezes;

     •   there were common circumstances leading to unilateral freeze determinations;

     •   procedures for unilateral freeze determinations were consistent with other types
         of freeze determinations;

     •   generally, the RRB bears the cost of benefits awarded unilaterally;

     •   the agreement between the RRB and the SSA regarding the agencies’
         responsibilities for coordinating disability decisions under the relevant sections of
         the RRA and the Social Security Act was outdated;

     •   the RRB’s procedures for granting unilateral freezes were not complete;

     •   coordination with the SSA needed improvement;

     •   the RRB’s system coding errors could result in the RRB bearing unnecessary
         costs; and




          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
9
                                                      Office of Inspector General
                                                  for the Railroad Retirement Board


        •      some controls related to the coding of disability freezes in the RRB’s system and
               notification letters needed strengthening.

  OA made seven recommendations in connection with this audit. Complete text of this
  audit is available in the library section of OIG’s website at www.rrb.gov/oig.

               Audit of the Account Benefits Ratio –
               September 29, 2010
  RRA benefits and the payroll taxes that support the benefits are based on a two-tier
  system. Payroll taxes paid by railroad employers and their employees are the primary
  source of funding. Tier I payroll taxes, paid by employees and employers, are the same
  as social security payroll taxes. Tier II taxes finance railroad retirement benefits over
  and above social security levels. Employers and employees pay different rates for Tier
  II payroll taxes, which are based upon the ratio of certain asset balances to the total of
  benefits and administrative expenses paid under the railroad retirement program.

  The Railroad Retirement and Survivors’ Improvement Act of 2001 (RRSIA) requires the
  RRB to compute a projection of the account benefits ratio (ABR) and the average
  account benefits ratio (AABR) for each of the next five fiscal years. 2 The RRB is also
  required to certify their results to the Secretary of the Treasury.

  “[W]ith respect to any fiscal year, [the ABR is] the amount determined by the Railroad
  Retirement Board by dividing the fair market value of the assets in the Railroad
  Retirement Account and of the National Railroad Retirement Investment Trust…as of
  the close of such fiscal year by the total benefits and administrative expenses paid from
  the Railroad Retirement Account and the National Railroad Retirement Investment Trust
  during such fiscal year.” 3

  OA’s audit objective was to determine if the agency calculates the ABR accurately and
  certifies the ABR to the Secretary of Treasury timely.

  OA found that for the 2008 and 2009 ABR submissions, the RRB calculated the ABRs
  accurately and certified the ABRs to the Secretary of Treasury timely; however, a
  Management Control Review for the ABR needs to be completed and certain internal
  controls need strengthening.

  OA offered five recommendations in connection with this audit. Complete text of this
  audit is available in the library section of OIG’s website at www.rrb.gov/oig.

                                                         
  2
      45 U.S.C. § 231u(a)(1), Section 108 of RRSIA.
  3
      Id. Section 204d of RRSIA.


                  Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
10
                                                      Office of Inspector General
                                                  for the Railroad Retirement Board



               Railroad Medicare Services Billed with Dates of Service
               after the Beneficiaries’ Date of Death –
               September 30, 2010
  Since April 2000, the RRB has contracted with its nationwide contractor Palmetto
  Government Benefits Administrator, LLC (Palmetto) to process the Medicare Part B
  claims for qualified railroad retirement beneficiaries. Implementation of a benefit
  integrity program is one of Palmetto’s Medicare Integrity Program (MIP) responsibilities
  under its cost reimbursement contract with the RRB. The RRB does not contract with a
  regional Program Safeguard Contractor 4 and Palmetto retains all responsibility for MIP
  activities.

  CMS requires Medicare contractors to identify and initiate action to recover payment
  with a billed date of service that is after the beneficiary’s date of death. The
  identification of improperly paid claims shall be performed at a minimum on an annual
  basis for beneficiaries who died during the previous FY. Palmetto’s procedures require
  that their Benefit Integrity Unit conduct an annual review to determine if payments were
  made to providers for services rendered to beneficiaries after their date of death.

  This audit was initiated in response to concerns identified by OI that Railroad Medicare
  claims were being paid with service dates after the beneficiary’s date of death.
  The objective was to determine if Palmetto’s post-payment review process effectively
  identified Railroad Medicare provider claims with service dates occurring after the
  beneficiary’s death. OA concluded that overall the post-payment review process is not
  functioning in accordance with RRB managements’ intent or CMS’ objectives for the
  MIP.

  Auditors offered nine recommendations in connection with this audit. Complete text of
  this audit is available in the library section of OIG’s website at www.rrb.gov/oig.




                                                         
  4
      Program Safeguard Contractors perform specific MIP functions under contract with CMS.


                  Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
11
                            Office of Inspector General
                        for the Railroad Retirement Board



        Management Decisions and Implementation

  The OIG tracks the implementation of its recommendations to RRB management.
  Office of Management and Budget Circular No. A-50 (Revised) and the Inspector
  General Act Amendments of 1988 require the reporting of management decisions and
  corrective actions for all audit recommendations.

                               Management Decisions
            Requiring Management Decision on April 1, 2010            0
            Pending Management Decision for New
                                                                      0
            Recommendations
            Management Decision on Previous Recommendations           0
            Recommendations Pending Management Decision on
                                                                      0
            September 30, 2010



                                  Corrective Action
            Recommendations Requiring Action on April 1, 2010       145
            Recommendations Issued During Reporting Period           44
            Corrective Actions Completed During Reporting Period     30
            Recommendations Rejected During Reporting Period          5
            Final Actions Pending on September 30, 2010             154




         Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
12
                                                      Office of Inspector General
                                                  for the Railroad Retirement Board



               Office of Investigations

  OI's primary objective is to identify, investigate, and refer for prosecution or monetary
  recovery action cases of waste, fraud, and abuse in the RRB’s programs. OI also seeks
  to prevent and deter program fraud by reporting systemic weaknesses in the RRB’s
  operations and processes identified through investigative work. In order to maximize
  the impact of its resources, OI continues to pursue cooperative investigative activities in
  coordination with other Inspectors General and law enforcement agencies, such as the
  Federal Bureau of Investigation, the U.S. Secret Service, and the Postal Inspection
  Service.

               Investigative Accomplishments 5

                                                               April 1, 2010 –
           Action                                                                 Fiscal Year 2010
                                                             September 30, 2010
           Referrals to the Department of
                                                                     33                   67
           Justice
           Indictments/Informations                                  22                   47
           Arrests                                                   5                    10
           Convictions                                               31                   50
           Civil Complaints                                          5                    13
           Civil Judgments                                           9                    19
           Restitution and Fines                                 $16,465,422          $17,181,541
           Civil Damages and Penalties                           $10,957,633          $11,643,861
           Investigative Recoveries 6                             $211,996             $470,786
           Community Service Hours                                  271                  746




                                                         
  5
   The total amount of financial accomplishments in the table reflect fraud amounts related to programs
  administered exclusively by the RRB and fraud amounts from other federal programs such as Medicare or
  Social Security which were included in the disposition resulting from the investigation.
  6
   RRB benefits that are overpaid due to fraud and can be recouped through RRB administrative recovery
  action are expressed as investigative recoveries.



                  Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
13
                                                      Office of Inspector
                                                      O         I       r Generall
                                                  for the Railro
                                                               oad Retire
                                                                        ement Bo
                                                                               oard



               C
               Current Caseloa
                             ad

  During this semiannual reporting period, OI reviewe
                                                    ed 325 mattters and op
                                                                         pened 108 new
                                                                                   n
  cases.

                                                            I
                                                            Investigative Caseloa
                                                                                ad Data
                   Investigatiive Cases Open
                                        O    as of April 1, 2010                                             4
                                                                                                             408
                   Investigatiive Cases Opened
                                        O      Du
                                                uring Reporrting Period                                      1
                                                                                                             108
                   Investigatiive Cases Closed
                                        C      Durring Reportiing Period                                     1
                                                                                                             111
                   Investigatiive Cases Open
                                        O    on Se
                                                 eptember 30,
                                                          3 2010                                             4
                                                                                                             405
   
                                                                                     7
  OI’s currrent caselo
                     oad totals 40
                                 05 matters,, representiing more thhan $53.4 million
                                                                             m         in
  potential fraud. The chart beloow reflects the distribu
                                                        ution of OI cases
                                                                    c     and the potentiaal
  fraud lossses by the
                     e RRB’s ma ajor program
                                           m areas.

                                                                   44 C
                                                                      Cases
                                es
                          87 Case
                                                                   $444
                                                                      4,800
                        $46.2 Million
                                                                                            Other
                                                                                            Disability
                                                                                            Unemp
                                                                                                ployment & Sicckness
                                                                                            Retirem
                                                                                                  ment
                                                                                            Medicaare


         59 Caases
        $2.0 M
             Million
                                                                               159 Casses
                                                                              $4.2 Millon

                              56 Casses
                              $556,0
                                   000



  Other casse type is an amalgam
                         a        of various
                                     v       types of cases invoolving matterss such as miscconduct by RRB
                                                                                                       R
  employeees, threats agaainst agency employees, false
                                                  f     reporting
                                                                g by railroad employers,
                                                                               e          an
                                                                                           nd others.
                                                         
  7
    This refle
             ects potential fraud amountts related to prrograms admiinistered exclu
                                                                                  usively by the RRB and pottential
  fraud amo ounts from other federal pro ograms such asa Medicare or Social Security which havve been identiffied
  during OI’ss joint investig
                            gative work.



                  Semiannu
                         ual Report to the Con
                                             ngress │ April
                                                      A     1, 2010
                                                                  0 to Septem
                                                                            mber 30, 2010
                                                                                     2
14
                                 Office of Inspector General
                             for the Railroad Retirement Board



            Representative Investigations
            April 1, 2010 – September 30, 2010

            Disability Investigations

      OI conducts fraud investigations relating to the RRB's disability program. Railroad
      workers who are awarded a disability annuity by the RRB are subject to work
      restrictions and earnings limitations.

      During this reporting period, OI obtained eight convictions and one civil judgment in
      disability fraud cases. The defendants received sentences totaling five months of
      prison, 24 years of probation; two years of suspended sentences, and were ordered to
      pay approximately $463,300 in restitution, fines, and civil damages/penalties.

      Descriptions of representative cases completed during this reporting period follow.

            Annuitant’s Wages Fraudulently Paid to Spouse
   
  Based upon a referral from another federal agency, OI Special Agents investigated an
  RRB disability annuitant who, in order to conceal his income from the RRB, directed his
  employer to pay his salary directly to his spouse. OI’s investigation revealed that the
  spouse performed little or no work for the employer; whereas, the annuitant performed a
  wide range of duties. The annuitant’s failure to report his income to the RRB caused
  him to fraudulently receive approximately $33,000 in disability payments.

  This case was referred to the United States Attorney’s Office for the District of
  Minnesota. The United States Attorney’s Office filed an information against the
  annuitant for embezzling assets. The annuitant pled guilty and was sentenced to three
  months of confinement, two years of supervised release, and more than $79,000 in
  fines and restitution.

            Disability Annuitant Owned and Operated A Variety of
            Successful Businesses

  Special Agents investigated an RRB disability annuitant who owned and operated a
  variety of successful businesses. Their investigation revealed that the annuitant used
  his business income to pay his daily living expenses, a fact which he failed to report to
  the RRB. This failure caused him to fraudulently receive more than $52,000 in disability
  payments.




             Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
15
                               Office of Inspector General
                           for the Railroad Retirement Board


  This case was referred to the United States Attorney’s Office for the Eastern District of
  Arkansas. The subject was indicted by a Federal Grand Jury and subsequently pled
  guilty to four counts of False Report to the RRB and was sentenced to 60 days of
  confinement, one year of probation, and full restitution.

         IRS Audit Leads to RRB Disability Fraud Case
  Previously undisclosed income was discovered during the course of an Internal
  Revenue Service audit of an RRB disability annuitant. OI’s subsequent investigation
  revealed that from January 2004 through November 2005 the annuitant earned wages
  in excess of the allowable amount established by the RRA. The annuitant’s failure to
  report his income to the RRB caused him to fraudulently receive more than $56,000 in
  disability payments.

  This case was referred to the United States Attorney’s Office for the Western District of
  Wisconsin. The United States Attorney’s Office filed an information against the
  annuitant for the Theft of Public Money. The annuitant pled guilty to all charges and
  was sentenced to two years of probation and full restitution

         Unemployment - Sickness Insurance Investigations

  Unemployment Insurance (UI) - Sickness Insurance (SI) benefit fraud involves
  individuals claiming and receiving UI or SI benefits while working and receiving wages,
  in violation of federal law, from an employer. OI receives the majority of these cases
  from the RRB’s Disability, Sickness, and Unemployment Benefits Division as a result of
  information developed through state wage matching programs. The RRB conducts
  computer wage matches with various states to identify claimants who may have
  collected RRB administered UI or SI benefits on the same days they received wages
  from a private employer.

  During this reporting period, OI obtained seven convictions and three civil judgments for
  UI and SI fraud cases. Defendants in these cases received, in the aggregate, six
  months of prison, 12 years of probation, one year of suspended sentence, and were
  ordered to pay almost $67,000 in restitution, fines, and civil damages/penalties.

  The following are examples of UI and SI cases completed during this reporting period.

         UI Claimant Ordered to Repay Over $28,000
    
  OI initiated this investigation of an RRB UI claimant based upon an agency referral.
  OI’s subsequent investigation, determined that during August 2007 through December
  2007 the claimant applied for RRB UI benefits on the same days he was working for a

          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
16
                                  Office of Inspector General
                              for the Railroad Retirement Board


  municipal fire department. The claimant failed to report his work and earnings to the
  RRB and fraudulently received over $6,000 in UI benefits.

  This case was referred to the United States Attorney’s Office for the District of New
  Mexico. The United States Attorney’s Office filed a civil complaint against the claimant
  for violation of the False Claims Act. The claimant signed a consent judgment agreeing
  to pay treble damages plus a $10,000 penalty.
   
            UI Claimant Failed to Report Wages
   
  OI initiated an investigation of an RRB UI claimant based upon an agency referral. OI’s
  subsequent investigation determined that during the period of February 2006 through
  July 2006 the claimant applied for RRB UI benefits on the same days he was working
  and being paid by a private employer. He submitted a total of 11 false claims when
  applying for benefits by intentionally not reporting his employment. His actions resulted
  in the theft of more than $6,000 in UI benefits.

  This case was referred to the New York District Attorney’s Office. The New York District
  Attorney’s Office filed a criminal complaint against the claimant for violation of New York
  Penal Code Sections relating to Grand Larceny and Falsifying Business Records. The
  claimant pled guilty to Grand Larceny and was sentenced to three years of probation
  and ordered to pay full restitution.


            Retirement-Survivor Benefits and Representative Payee
            Investigations
      The RRA provides retirement-survivor benefits for qualified railroad workers and their
      families. RRB retirement-survivor benefit fraud typically involves:

        •   an individual failing to report information to the RRB that may disqualify the
            annuitant from receiving benefits;

        •   instances of theft and/or fraudulent cashing of retirement benefit checks by
            someone other than the authorized RRB annuitant; or

        •   an individual designated to receive RRB benefits on behalf of an RRB annuitant
            fraudulently using the funds for their own personal use.

      During this reporting period, OI obtained eight convictions and one civil judgment for
      these types of fraud cases. The defendants, in the aggregate, received sentences
      totaling one year of prison, more than 23 years of probation, and were ordered to pay
      more than $596,000 in restitution, fines, and civil damages/penalties.


             Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
17
                                  Office of Inspector General
                              for the Railroad Retirement Board



      Examples of cases completed during this reporting period follow.

            Annuitant’s Mother Steals RRB Benefits
   
      Based upon an RRB District Office referral, OI initiated an investigation against an
      individual who received RRB benefits to care for her disabled child. OI’s investigation
      revealed that from December 2003 through April 2005 the subject was not entitled to
      receive benefits because her daughter had left her care.

      The subject had made several statements to the RRB District Office indicating that her
      daughter was still in her care even though her daughter had moved out of her
      household and was married. Failure to report her daughter’s departure and
      subsequent marriage caused the subject to fraudulently receive more than $20,000 in
      RRB Child Disability Benefits payments to which she was not entitled.

      This case was referred to the United States Attorney’s Office for the District of
      Colorado. The United States Attorney’s Office filed an indictment charging the mother
      with Failure to Provide Information to the RRB and Wire Fraud. She pled guilty to one
      count and was sentenced to three years of probation and ordered to pay more than
      $20,000 in restitution

            RRB Survivor Annuitant Fails to Report Disqualifying Marriage
   
      Based upon an agency referral, OI initiated an investigation against a widow annuitant.
      Subsequent investigation revealed that the subject had applied for a widow’s annuity in
      April 1998 but at the time of her application she was re-married and was ineligible for
      survivor benefits. The annuitant’s fraudulent activity caused the agency to pay her over
      $70,000 in benefits.

      This case was referred to the United States Attorney’s Office for the Central District of
      California. The United States Attorney’s Office filed an indictment charging the
      annuitant with Theft of Government Property. The annuitant pled guilty to one count
      and was sentenced to three years of probation and ordered to pay full restitution.
       




              Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
18
                              Office of Inspector General
                          for the Railroad Retirement Board



        Representative Payee Fails to Pay Nursing Home Expenses
  OI initiated this investigation of a representative payee based upon an agency referral.
  OI’s subsequent investigation revealed that the representative payee had used RRB
  funds for his own personal use instead of paying the RRB beneficiary’s nursing home
  bills.

  This case was referred to the United States Attorney’s Office for the District of South
  Dakota. The United States Attorney’s Office filed an indictment against the
  representative payee for Theft of Government Funds. He was convicted and ordered to
  pay full restitution of more than $14,000.

        Railroad Medicare Investigations
  Qualified railroad retirement beneficiaries are covered under the Railroad Medicare
  program the same as persons covered under the social security system. Individuals
  covered under the railroad retirement system submit their Medicare enrollment
  applications to the RRB for processing. The RRB also selects and monitors the single
  nationwide Medicare Part B Carrier contract. During FY 2009, the RRB’s Medicare
  contractor paid over $900 million in medical insurance benefits.

  Since 1990 the U.S. Government Accountability Office has designated Medicare as a
  high-risk area due to its size and complexity, as well as its susceptibility to
  mismanagement and improper payments. Additionally, OA’s Management and
  Performance Challenges Facing the Railroad Retirement Board published in the RRB’s
  annual Performance and Accountability Report continues to list Railroad Medicare
  benefit integrity as a serious management challenge.

  All of OI’s active Medicare cases are being worked jointly with the Office of Inspector
  General for the U.S. Department of Health and Human Services, the Office of Inspector
  General for the Office of Personnel Management, or other agencies responsible for
  investigating health care fraud. Interagency cooperation is imperative to effective law
  enforcement especially among agencies responsible for investigating the complexities
  of health care fraud.

  During this reporting period, OI obtained eight convictions and four civil judgments for
  Railroad Medicare fraud cases. Defendants in these cases received, in the aggregate,
  more than 36 years of prison, nine years of probation, and were ordered to pay more
  than $26.2 million in restitution, fines, and civil damages/penalties.

  The following are examples of Railroad Medicare cases completed during this reporting
  period.


          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
19
                               Office of Inspector General
                           for the Railroad Retirement Board



         RRB Medicare Recovers More Than $1.4 Million in Qui Tam Suit

  OI Special Agents worked cooperatively as members of a multi-agency team
  investigating allegations contained in a Qui Tam lawsuit filed in the Northern District of
  Illinois. Agents were able to substantiate the allegations contained in the Qui Tam and
  the U.S. Attorney’s Office for the Northern District of Illinois intervened in the case.

  The team’s investigation revealed that the doctor utilized his hospital privileges to gain
  access to patient information including both personal and insurance information. He
  subsequently utilized this information to submit false claims to more than 30 private and
  public health insurance programs including Railroad Medicare.

  The U.S. Attorney’s Office for the Northern District of Illinois filed an information against
  the doctor for Health Care Fraud. The doctor pled guilty and was sentenced to five
  years of prison and $20 million in restitution. The doctor also entered into a civil
  settlement agreement consenting to pay an additional $13 million in restitution. The
  Railroad Medicare program will receive more than $1.4 million from this settlement.
   
         Business Owners Ignore Cease and Desist Order

  Based upon a referral from another federal agency, an OI special agent participated in
  the joint investigation of an orthotics business. Subsequent investigation revealed that
  the business owners continued to see patients and bill Medicare even after they failed
  the necessary licensing test for a fifth time and were ordered by the State Board of
  Orthotics and Prosthetics to cease and desist.

  This case was referred to the United States Attorney’s Office for the Southern District of
  Texas. The United States Attorney’s Office indicted the business owners on numerous
  counts of Health Care Fraud and other related charges. After a two week trial, they
  were convicted of Conspiracy to Commit Health Care Fraud and Aid, Abet, and Assist in
  Health Care Fraud. They were sentenced to a total of nearly 11 years of prison, three
  years of supervised release, and ordered to make full restitution of over $491,000.

         Investigation Prevents Medicare from Paying Fraudulent Claims
   
  OI initiated this investigation pursuant to a referral from the Office of Inspector General
  for the Department of Health and Human Services. The subsequent joint investigation
  revealed that the owners of an ambulance company submitted fraudulent Medicare
  claims for medically unnecessary transportation. During the course of this investigation,
  the company was placed on 100% pre-payment review which prevented Medicare from
  paying fraudulent claims.



           Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
20
                                 Office of Inspector General
                             for the Railroad Retirement Board


  This case was referred to the United States Attorney’s Office for the Southern District of
  Illinois. The owners entered into a settlement agreement relinquishing any rights to
  more than $74,000 in pending Medicare payments and consenting to debarment from
  the Medicare program.

            OI Special Agents Participate in the Largest Federal Health Care
            Fraud Bust Ever
   
  On July 16, 2010, 14 OI Special Agents actively participated in a multi-state Medicare
  Fraud Strike Force enforcement action. This action was the largest federal health care
  fraud bust ever with over 360 federal and local law enforcement agents working
  together to execute both search and arrest warrants. In connection with this
  enforcement action, charges were unsealed against 94 individuals and more than 40
  individuals were arrested. These charges covered a variety of Medicare fraud schemes
  which represented approximately $251 million in false claims to the Medicare program.

  This action garnered national media attention. Media attention creates a substantial
  deterrent by highlighting the ramifications of fraudulent activities.

            Retired Nurse Sentenced for Health Care Fraud
   
  In our October 1, 2009 through March 31, 2010 Semiannual Report to the Congress, we
  provided information regarding the criminal conviction of a retired nurse for Medicare
  fraud. On September 9, 2010, a United States District Court Judge for the Southern
  District of Texas sentenced her to 33 months of prison, three years of supervised
  release, and more than $462,000 in restitution.

            Civil Enforcement Results

      OI may pursue civil actions to obtain judicial orders for the recovery of funds
      fraudulently obtained by annuitants or claimants. These civil actions are typically
      brought under the provisions of the False Claims Act. This statute allows the
      government to recover up to treble damages as well as $5,500 to $11,000 for each
      false claim submitted.

      During this semiannual reporting period, a total of nine civil judgments were entered by
      U.S. District Courts for RRB fraud cases totaling more than $10.9 million in damages
      and penalties. Some of these civil actions are pursued under the Department of
      Justice’s Affirmative Civil Enforcement (ACE) program which provides an efficient
      means to address fraud against the RRB’s programs. ACE is an effective way to return
      fraud losses to the RRB’s trust funds and it also creates a deterrent against future
      fraud.


             Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
21
                                  Office of Inspector General
                              for the Railroad Retirement Board




            Hotline Contacts
      The OIG established its Hotline to receive complaints concerning suspected fraud,
      waste, and abuse in the RRB’s programs and operations. The Hotline provides an
      open line of communication for individuals to report suspected criminal activity and
      mismanagement/waste of RRB funds.

      The Hotline received 1,000 contacts during this reporting period and 2,185 during
      FY 2010. The following table summarizes Hotline referrals during both time periods.


                                             April 1, 2010 –
            Referral or Other Activity                               Fiscal Year 2010
                                           September 30, 2010
          RRB District or Regional
                                                    530                    1281
          Office
          Other (Hang Ups,
          Misdirected Calls,                        304                     608
          Disconnections, etc.)
          Office of Investigations                  70                      136
          Other Federal Agencies                    68                      107
          Calls with Insufficient
          Information to Make                        9                       25
          Appropriate Referrals
          RRB Bureaus                                8                       12
          Disposition Not Yet
          Determined, Additional
                                                     7                       9
          Information is Being
          Obtained
          Local or State Agencies                    2                       4
          Referred to a Railroad                     2                       3




             Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
22
                                Office of Inspector General
                            for the Railroad Retirement Board



          OTHER OVERSIGHT ACTIVITIES

          American Recovery and Reinvestment Act of 2009

  During this semiannual period, the OIG continued their efforts to aide in a transparent
  American Recovery and Reinvestment Act (ARRA) process by preparing monthly
  progress reports in formats developed by the Recovery Accountability and
  Transparency Board. These monthly reports are published on the Recovery.gov
  website and are also available on the RRB’s Recovery Act Information webpage.
  During this semiannual reporting period, OI opened an additional 20 cases involving
  fraudulent receipt of extended ARRA funded UI benefits.

          Occupational Disability Program

  The RRB’s occupational disability program is a unique benefit available only to
  qualifying railroad workers. The qualification standards for this benefit are much
  different and more lenient, than those needed to qualify for a total and permanent
  disability under the Social Security Act. The OIG has reported detailed information
  regarding this issue in previous Semiannual Reports to the Congress; however, it is
  important to note that the OIG continues to devote investigative and audit resources to
  the oversight of this and other agency programs.

  In response to the OIG’s concerns regarding potential improper payments in the
  occupational disability program, the Board directed the formation of an agency working
  to focus on this issue. The OIG applauds the agency for their efforts but continues to
  encourage the agency to adopt the following recommendations in connection with the
  occupational disability program:

      •   All future occupational disability applicants should be sent for a secondary
          medical screening prior to adjudication.

      •   The RRB should require the applicant’s immediate supervisor to complete and
          certify all RRB Forms G-251a or G-251b. These forms are used by the RRB to
          request information from railroad employers regarding job duties performed by
          applicants; however, in a large percentage of cases the employers fail to return
          the forms or provide the requested information.

      •   The RRB should amend current disability annuitant reminder forms to include an
          annual questionnaire requiring a certified response from all disability annuitants.
          If the disability annuitant fails to return the signed certification form within a
          reasonable timeframe, then their disability annuity should be suspended.


           Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
23
                                Office of Inspector General
                            for the Railroad Retirement Board


      •   The RRB should amend their current self-employment/corporate involvement
          verification form to require more thorough and complete information. A more
          comprehensive form is currently awaiting Board approval.

  The implementation of these recommendations would provide disability examiners with
  additional information to consider in their adjudication process, resulting in better
  supported decisions.

          Signature Proxy by Attestation

  During this reporting period, the OIG reviewed and responded to a risk assessment
  issued by the RRB. The RRB analyzed the risks associated with the implementation of
  signature proxy through attestation for benefits under the RRA. This process has been
  proposed as an alternative to the current process of paper-and-ink signatures on RRA
  benefit applications. The OIG directed a number of serious concerns regarding this
  issue to the Board. Due to the potentially sensitive nature of this issue, the OIG has
  limited the distribution of their comments to agency personnel. This issue is currently
  pending Board review.

          STRATEGIC PLAN
  During this semiannual reporting period, the OIG adopted a new Strategic Plan for
  FYs 2010 – 2015. This plan is in accordance with the Government Performance and
  Results Act of 1993 and establishes three strategic goals.

      1. Add value to the RRB’s programs and operations.

      2. Protect the integrity of the RRB’s programs, operations, and trust funds.

     3. Ensure quality and excellence in the OIG’s work and products.
   
  Additionally, this plan redefines the OIG’s mission statement as follows:

          The OIG will promote economy, efficiency, and effectiveness in the RRB’s
          programs and operations by focusing our audit and investigative efforts on
          protecting the integrity of the RRB’s trust funds and improving the delivery of
          benefits to the railroad community.
   
  The full text of this Strategic Plan is available on our website at www.rrb.gov/oig.
   



           Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
24
                               Office of Inspector General
                           for the Railroad Retirement Board



         OUTREACH ACTIVITIES
  In addition to audit and investigative activities, OIG staff members perform outreach as
  a means to further the office’s mission. The following are examples of outreach
  activities conducted during this reporting period.

  The Inspector General made a presentation to students majoring in Government
  Oversight and Inspection at John Jay College of Criminal Justice in New York. His
  presentation focused on government auditing standards and issues pertinent to the
  Inspector General community.

  The Inspector General and members of his executive staff met with the Health Care
  Bureau Chief, the Mediation Supervisor, and an Assistant Attorney General from the
  Office of the Attorney General for the State of Illinois. They met to discuss federal and
  state cooperation to combat health care fraud, waste, and abuse.

  The Inspector General and the Assistant Inspector General for Investigations presented
  a breakout session entitled Fraud Prevention and Detection for the 2010 Illinois Public
  Pension Reciprocal Conference.

  The Inspector General discussed The Role of the Inspector General in the Current
  Economic Climate at a luncheon sponsored by the Chicago Chapter for the Association
  of Government Accountants (AGA).

  The Special Agent-in-Charge and a Special Agent from OI’s Chicago Field Office
  conducted fraud awareness training for newly hired agency Contact Representatives.
  Agency Contact Representatives have direct interaction with RRB beneficiaries and
  provide the OIG with an invaluable source of information and referrals.
   
  OI staff members participated in a number of Medicare related meetings including
  several task forces. These task forces provide an open forum for health care fraud
  related communications and foster a team approach to health care fraud
  investigations. Members of the various task forces include representatives from: the
  Department of Justice; the Centers for Medicare and Medicaid Services; the Office of
  Inspector General for the Department of Health and Human Services; the Office of
  Inspector General for the Office of Personnel Management; the Federal Bureau of
  Investigation; various State Police agencies; various Medicaid Fraud Control Units; and
  Medicare Program Safeguard Contractors. Since Railroad Medicare is a national
  program, OI staff members attend task forces in several judicial districts.  Participation in
  Task Force meetings allows the Special Agents to develop the necessary contacts and
  information to ensure that Railroad Medicare fraud losses will be included in Medicare



          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
25
                               Office of Inspector General
                           for the Railroad Retirement Board


  investigations. They also provide an opportunity for OI Special Agents to become
  familiar with the most recent fraud schemes.

  The Assistant Inspector General for Audit attended the 2010 Annual Council of the
  Inspectors General on Integrity and Efficiency/U.S. Government Accountability Office’s
  Financial Statement Audit Conference. This conference covered current issues related
  to annual financial statement audits and related standards, including topics on
  accountability issues, stimulus oversight, and financial management.

  A number of OA staff members participated in AGA’s Chicago Chapter. AGA provides
  a variety of networking and training opportunities for government auditing professionals.
  OA staff members currently serve on the Executive Committee as Membership Director
  and Website Director.

  An auditor served as a session monitor for the North American Computer Audit, Control,
  and Security workshop. In this capacity, she provided logistical support for the
  speakers and attendees, introduced speakers, and coordinated announcements and
  materials for the sessions she monitored.

  A supervisory auditor serves as the OIG’s representative at the RRB’s monthly
  information technology steering committee meetings.

         OPERATIONAL ISSUES
  The following operational issue impacts the OIG’s ability to effectively carryout its
  oversight role. This issue would have to be remedied with legislative change.

         National Railroad Investment Trust

  The National Railroad Retirement Investment Trust (NRRIT) was established by RRSIA
  to manage and invest Railroad Retirement assets. As of January 31, 2010, the RRB’s
  investments in the NRRIT were valued at approximately $22.8 billion.

  Although the NRRIT is a tax-exempt entity independent of the federal government,
  RRSIA requires that the NRRIT report to the RRB. This office has previously expressed
  concerns about the RRB’s passive relationship with the NRRIT and has identified the
  RRB’s oversight in this area as a critical issue. However, RRSIA does not provide the
  OIG with oversight authority to conduct audits and investigations of the NRRIT. This
  office believes that independent oversight of the NRRIT’s operations is necessary to
  ensure that sufficient reporting mechanisms are in place and to ensure that the Trustees
  are fulfilling their fiduciary responsibilities.


          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
26
                                 Office of Inspector General
                             for the Railroad Retirement Board




            LEGISLATIVE & REGULATORY REVIEW
      The Inspector General Act of 1978, as amended, requires the Inspector General to
      review existing and proposed legislation and regulations relating to the programs and
      operations of the agency. The agency neither proposed nor finalized any legislation or
      regulations during this reporting period.




             Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
27
      APPENDICES
                                                                            Page
  Appendix Title
                                                                             No.
      A        Office of Inspector General Reports and Other Publicly        29
               Available Documents Issued
      B        Audit Reports with Questioned Costs or with                   30
               Recommendations that Funds be Put to Better Use
      C        Report on Receivables, Waivers, and Recoveries                31
      D        Significant Matters                                           33
      E        Peer Reviews                                                  34
      F        Management Reports                                            36
      G        Reporting Requirements                                        42
      H        Acronyms                                                      43
      I        Legal References                                              44




          Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
28
 


          Appendix A – Office of Inspector General Reports and
          Other Publicly Available Documents Issued
    • Review of Statistical Methods Employed in the Financial Interchange Determination,
    May 4, 2010 (This report was prepared, under contract, by KPMG.)

    • Review of the Technical Approach and Methodology Used to Determine the Annual
    Financial Interchange Amount for the Year Ended September 30, 2008, May 19, 2010
    (This report was prepared, under contract, by KPMG.)

    • The Railroad Retirement Board’s Progress in Implementing Federal Information Security
    Management Act Requirements, May 19, 2010

    ● Audit of Internal Controls over Medicare Premium Transfers Between the Railroad
    Retirement Board and Centers for Medicare and Medicaid Services, May 21, 2010

    • Review of the Accuracy of the Financial Interchange as Executed for the Year Ended
    September 30, 2008, May 25, 2010 (This report was prepared, under contract, by KPMG.)

    • Audit of Unilateral Disability Freeze Determinations, August 12, 2010

    • Audit of the Account Benefits Ratio, September 29, 2010

    • Railroad Medicare Services Billed with Dates of Service after the Beneficiaries’ Dates of
    Death, September 30, 2010

    All audits and other publicly available documents are available on our website
    at www.rrb.gov/oig.




               Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
    29
  


             Appendix B – Audit Reports with Questioned
             Costs or with Recommendations That Funds be
             Put to Better Use
                                                 Audit Reports
                                                                 Amount of      Amount of
                                                     with
                                                                 Questioned    Unsupported
                                                  Questioned
                                                                   Costs          Costs
                                                    Costs
     A. For which no management decision had
     been made by April 1, 2010
                                                       0              0             0
     B. Which were issued from April 1, 2010
     through September 30, 2010
                                                       0              0             0
     Subtotal (A + B)                                  0              0             0
     C. For which a management decision was
     made between April 1, 2010 through                0              0             0
     September 30, 2010
     (i) dollar value of disallowed costs              0              0             0
     (ii) dollar value of costs not disallowed         0              0             0
     D. For which no management decision had
     been made by September 30, 2010
                                                       0              0             0
     E. Report for which no management
     decision was made within six months of            0              0             0
     issuance


      


                                                              Audit Reports With
                                                              Recommendations       Dollar
                                                             that Funds Be Put to   Value
                                                                   Better Use
     A. For which no management decision had been made by
     April 1, 2010
                                                                      0                 0
     B. Which were issued from April 1, 2010 through
     September 30, 2010
                                                                      0                 0
     C. Subtotal (A + B)                                              0                 0
     (i) dollar value of disallowed costs                             0                 0
     (ii) dollar value of costs not disallowed                        0                 0
     D. For which no management decision had been made by
     September 30, 2010
                                                                      0                 0
     E. Report for which no management decision was made
     within six months of issuance
                                                                      0                 0




               Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
30
  


           Appendix C – Report on Receivables, Waivers,
           and Recoveries
     The FY 1999 appropriations language for the OIG requires the reporting of additional
     information concerning actual collections, offsets, and funds put to better use achieved
     as a result of the OIG’s activities.

                                Office of Investigations
     Recoveries realized by the RRB resulting from court-ordered restitution and civil
     damages:

                                                   Amount
                               Fiscal Year
                                                   Recovered
                                   1999            $ 855,655
                                   2000            $1,038,134
                                   2001            $ 990,356
                                   2002            $ 785,843
                                   2003            $ 947,876
                                   2004            $ 646,273
                                   2005            $ 844,183
                                   2006            $1,281,680
                                   2007            $1,347,049
                                   2008            $1,389,489
                                   2009            $1,097,227
                                   2010            $1,118,256

      




             Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
31
  




                                                                 Office of Audit

                                       Funds to be               Funds
                                                                               Receivables              Recoveries
                      Report           put to better            Agreed by
                                                                               Established   Waivers     to Date 8
                                            use                Management
                          99-03                  $50,850             $50,850       $50,850    $50,490         $360
                          99-14                  $83,000             $83,000       $34,423         $0      $30,584
                          99-16           $48,000,000            $48,000,000            $0         $0   $17,300,000
                          99-17           $11,000,000            $11,000,000            $0         $0    $1,604,545
                          00-16                $235,000             $235,000            $0         $0     $253,846
                          03-06                $306,129                  N/A            $0         $0     $306,129
                          04-06                $821,000             $821,000      $604,429     $5,564     $629,688
                          04-10              $400,000              $400,000              $0       $0      $761,151
                          05-03             $1,800,000            $1,800,000     $4,586,602 $337,700     $1,937,420
                          05-06                  $10,000             $10,000            $0         $0      $42,915
                          05-07             $1,070,000            $1,070,000       $50,581         $0      $78,294
                          05-10             $2,600,000            $2,600,000                 $311,000
                          06-04                $257,000             $257,000
                          06-05                  $2,100               $2,100            $0         $0           $0
                          06-06                $200,000             $200,000       $13,651         $0      $20,611
                          09-02                $600,000             $600,000          $320         $0     $304,908
                          10-09             $3,355,408            $3,355,408            $0         $0           $0




                                                            
     8
         Both overpayments and underpayments are included in this column.



                     Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
32
  


                  Appendix D – Significant Matters
     The OIG has identified deficiencies in controls over financial reporting and information
     security as significant matters. A summary of the issues and related recommendations
     for corrective action follow.
                                                               Financial Reporting
     The OIG previously identified internal control over financial reporting as a material
     weakness. As a result, financial accounting controls cannot be relied upon to ensure
     that material errors will be detected to prevent misstatements in financial reporting.
     RRB financial managers have worked to strengthen internal control over financial
     reporting during FY 2009. During the third quarter of FY 2009, the agency implemented
     enhanced controls to address the weaknesses that, in the aggregate, were the basis for
     the OIG's assessment of a material weakness during the prior year. 9 However,
     because these enhanced controls were not implemented until mid-year, they could not
     be relied upon to ensure the accuracy of accounting and reporting for FY 2009 and had
     not been in operation for a period of time sufficient to support an assessment of overall
     effectiveness.

     Compliance with requirements                                     February 9, 2007      Report OIG 07-01, #11
     Report preparation                                               March 6, 2008         Report OIG 08-01, #9
     Transaction documentation                                        March 6, 2008         Report OIG 08-01, #11
     Journal voucher preparation and recording                        March 24, 2009        Report OIG 09-02, #2 and 4


                                                               Information Security
     The OIG previously evaluated information security pursuant to the provisions of FISMA
     and concluded that the RRB has not yet achieved an effective FISMA-compliant
     security program. Although agency managers are working to strengthen controls,
     management action in response to the following OIG recommendations had either not
     been completed as of the end of the current semiannual reporting period or had not
     been in place long enough to permit evaluation.

     Access Controls                                                   February 5, 2002     Report OIG 02-04, #20 and 21
                                                                       June 7, 2005         Report DSD Web, #16
                                                                       September 27, 2007   Report OIG 07-08, #1
                                                                       March 24, 2009       Report OIG 09-02, #7 and 8
                                                                       September 30, 2009   Report OIG 09-05, #8, 11, 12,
                                                                                            15, 19, and 20
                                                                       September 30, 2009   Report OIG 09-06, #3, 4, and 6
     Internal Control Over Certification and                           July 18, 2005        Report OIG 05-08, #4
     Accreditation
                                                                       September 30, 2008   Report OIG 08-05, #2 and 7
                                                                       November 12, 2009    Report OIG 10-01, #1 and 5



                                                            
     9
         Fiscal Year 2008 Financial Statement Audit Letter to Management, OIG Report No. 09-02, March 2009.


                     Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
33
  


             Appendix E – Peer Reviews
     Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act
     (P.L. 111-203) requires Inspectors General to provide information regarding peer
     reviews in their Semiannual Reports to the Congress.
     During this reporting period, OA conducted a peer review of the audit organization for
     the Federal Deposit Insurance Corporation, Office of Inspector General (FDIC-OIG).
     The review was conducted in accordance with Government Auditing Standards and
     guidelines established by the Council of Inspectors General on Integrity and Efficiency.
     OA examined the system of quality control for the FDIC-OIG’s audit organization for the
     year ended March 31, 2010.
     Based upon their review, OA concluded that the system of quality control (in effect for
     the year ended March 31, 2010) had been suitably designed and complied with to
     provide the FDIC-OIG with reasonable assurance of performing and reporting in
     conformity with applicable professional standards in all material respects.
     In general, federal audit organization may receive a peer review rating of pass, pass
     with deficiencies, or fail. OA awarded the FDIC-OIG a peer review rating of pass.
     On September 21, 2010, the Inspector General sent the FDIC-OIG a letter setting forth
     findings that were not considered to be of sufficient significance to affect OA’s
     conclusion. These recommendations along with their status as of September 30, 2010
     are set forth below.

     Recommendation                                                                       Status
     FDIC-OIG should schedule and complete its planned quality control review of          Pending
     individual engagements for overall compliance with professional standards,
     policies, and procedures.

     FDIC-OIG should enhance the current procedure for obtaining independence             Pending
     representations via e-mail by using “Yes” and “No” voting buttons in place of read
     receipts.

     FDIC-OIG should re-emphasize existing requirement to obtain Statement of             Pending
     Non-Conflict of Interest certifications from staff contributing to engagements.

     FDIC-OIG should develop procedures to obtain Annual Independence                     Pending
     Representation confirmation from new employees and reassigned staff before
     they are assigned to audits.

     FDIC-OIG should ensure that the procedures for reviewing work papers prior to        Reported as
     report issuance are followed.                                                        Implemented



      

                                       


               Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
34
  


           Office of Audit
     In general, federal audit organization may receive a peer review rating of pass, pass
     with deficiencies, or fail.

     The results of OA’s peer review, for the year ended March 31, 2009, were transmitted
     on August 24, 2009. OA received a peer review rating of pass. This peer review did
     not contain any recommendations.

           Office of Investigations
     In general, federal OIG investigative organizations may receive a peer review rating of
     fully compliant, compliant, or not compliant with the quality standards established by the
     Council of the Inspectors General on Integrity and Efficiency and the Attorney General’s
     Guidelines for Inspector Generals with law enforcement authority based on Section 6(e)
     of the Inspector General Act, as amended.

     The results of OI’s peer review, for the FY ended September 30, 2007, were transmitted
     on March 26, 2008. OI received a peer review rating of fully compliant. There are
     currently no outstanding recommendations.

                                 




             Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
35
  


           Appendix F – Management Reports*

                     Final Action on Audits with Disallowed Costs
     For the 6-Month Period Ending                            Number of          Disallowed
     September 30, 2010                                      audit reports          costs

     A.   Audit reports, with management decisions, on
          which final action had not been taken at the            0                 $0
          beginning of the period.
     B.   Audit reports on which management decisions
          were made during the period.                            0                 $0

     C.   Total audit reports pending final action during
          the period. (A + B)                                     0                 $0

     D.   Audit reports on which final action was taken
          during the period.

          1.     Recoveries

                 (a) Collections and offsets                      0                 $0

                 (b) Property                                     0                 $0

                 (c) Other                                        0                 $0

          2.     Recovery Waived                                  0                 $0

          3.     Total of 1 and 2                                 0                 $0

     E.   Audit reports needing final action at the end of
          the period (C - D.3).                                                     $0
                                                                   0




     *Appendix F was prepared by RRB management.




               Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
36
      


                    Management Report on Final Action on Audits with
                   Recommendations to Put Funds to Better Use for the
                       6-Month Period Ending September 30, 2010
                                                                    Number of                Funds to be
                                                                   audit reports           put to better use
A.         Audit reports, with management decisions, on
           which final action had not been taken at the
           beginning of the period.                                     3                     $802,100*

B.         Audit reports on which management decisions
           were made during the period.                                 0                         $0

C.         Total audit reports pending final action during
           the period. (A + B)                                          3                     $802,100

D.         Audit reports on which final action was taken
           during the period.

           1.    Value of recommendations implemented
                 (completed)                                            0                         $0

           2.    Value of recommendations that
                 management concluded should not or
                 could not be implemented (completed)                   0                         $0

           3.    Total of 1 and 2                                       0                         $0

E.         Audit reports needing final action at the end of
           the period (C - D.3)                                         3                     $802,100




         *Comprised of the following amounts: $2,100 from Audit Report 06-05, Review of Compliance
         with Provisions of the Railroad Retirement Act Governing the Initial Award of Benefits, $200,000
         from Audit Report 06-06, Review of the Termination and Suspension of Benefits Paid Under the
         Railroad Retirement Act, and $600,000 from Audit Report 09-02, Fiscal Year 2008 Financial
         Statement Audit Letter to Management.




                  Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
 37
        


Management Statement on Resolved Audit Reports Over 12 Months
    Old with Final Action Pending as of September 30, 2010 
                                                        Disallowed Funds to be put
Report                                         Date        costs    to better use       Reason action not completed
Fiscal Year 2000 Financial Statement          2/23/01     NONE         NONE        While help desk procedures have been
Audit (01-03)                                                                      upgraded, the Bureau of Information
                                                                                   Services is still developing reports to
                                                                                   close the last open recommendation.

Review of Information Security at the         2/5/02      NONE          NONE        Information Services has closed 26 out
Railroad Retirement Board (02-04)                                                   of 28 recommendations.
                                                                                    Documentation still needed for the 2
                                                                                    remaining.

Inspection of Unverified Records in the       3/20/03     NONE          NONE        Programs reviewed all 20,000 records
RRB’s Employment Data Maintenance                                                   and are using a recently implemented
System (03-06)                                                                      tracking system to close the last
                                                                                    recommendation in FY10, however due
                                                                                    to ARRA and WHBAA work, project
                                                                                    extended to 12/31/2011 to be
                                                                                    completed.

Review of RRB Compliance with Federal         12/6/04     NONE          NONE        Information Services completed an
Laws and Regulations on Competitive                                                 initial feasibility study of sourcing
Sourcing (05-02)                                                                    information technology activities but
                                                                                    continues to investigate alternate
                                                                                    approaches and use contractor
                                                                                    support.

Review of Internal Control Over the           5/5/05      NONE          NONE        The Chief Actuary indicated that they
Actuarial Projection Process (05-04)                                                are reviewing their options to best
                                                                                    implement this recommendation.

Review of Customer Service Performance        5/17/05     NONE          NONE        System changes are still being made to
Measures for Timeliness of Initial Railroad                                         address the remaining open
Retirement Annuity Payments (05-05)                                                 recommendation in FY11.

Review of LAN, LAN Security Scan and          6/7/05      NONE          NONE        These contractor-prepared confidential
Web-based Applications (DSD)                                                        reports contained 45
                                                                                    recommendations, with two-thirds
                                                                                    closed thus far.

Review of Access Controls in the End-         7/18/05     NONE          NONE        Information Services has closed 14 of
User Computing General Support System                                               15 recommendations in this
(05-08)                                                                             confidential report. New risk
                                                                                    assessment must be submitted for
                                                                                    remaining case.

Fiscal Year 2005 Evaluation of Information 9/28/05        NONE          NONE        Information Services continues to
Security at the Railroad Retirement Board                                           develop policies and procedures.
(05-11)




                   Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
     38
        


Management Statement on Resolved Audit Reports Over 12 Months
    Old with Final Action Pending as of September 30, 2010 
                                                     Disallowed Funds to be put
Report                                      Date        costs    to better use       Reason action not completed
Accuracy and Reliability of GPRA           1/30/06     NONE         NONE        Programs have closed four of the
Performance Measures: Timeliness of                                             seven recommendations. Work is
Non-Disability Survivor Annuity Payments                                        delayed due to higher priority project.
(06-03)

Review of Compliance with the Provisions   4/12/06     NONE          $2,100      Programs staff closed four of the five
of the Railroad Retirement Act Governing                                         recommendations. Project is awaiting
the Initial Award of Benefits (06-05)                                            completion of AARP project.

Review of the Termination and              5/24/06     NONE         $200,000     Programming work on a referral system
Suspension of Benefits Paid Under the                                            is pending that should close out the
Railroad Retirement Act (06-06)                                                  remaining open recommendation.

Review of Incident Handling and            8/24/06     NONE           NONE       Work continues on training material
Reporting at the Railroad Retirement                                             and progress has been made to
Board (06-09)                                                                    updating of policies.

Fiscal Year 2006 Financial Statement       2/9/07      NONE           NONE       The agency has closed 19 of the 20
Audit (07-01)                                                                    recommendations, with action on the
                                                                                 final one to be verified as part of the
                                                                                 FY08 financial statement audit.
                                                                                 Submitted documentation to OIG for
                                                                                 review. However OIG indicate they will
                                                                                 evaluate implementation of this
                                                                                 recommendation during FY2010
                                                                                 financial statement audit. There has
                                                                                 been no change in this status.

Audit of the DAISY/CHICO Component         3/9/07      NONE           NONE       Documentation was accepted by the
Application of the RRA Benefit Payment                                           OIG for implementation on one
Major Application System (07-02)                                                 recommendation and coordination with
                                                                                 another agency is still needed.
                                                                                 Resources were unavailable on the
                                                                                 other two recommendations.

Audit of the State Wage Match Data         3/28/07     NONE           NONE       Coordination required with outside
Transmission Controls (07-04)                                                    agencies. Programs completed and
                                                                                 implemented one of the two remaining
                                                                                 recommendations. The last
                                                                                 recommendation is schedule to be
                                                                                 completed in FY12.

Evaluation of the Railroad Retirement      7/30/07     NONE           NONE       New CPO was appointed. Additional
Board’s Privacy Program (07-06)                                                  funding and resources were needed.
                                                                                 Of the 15 recommendations, 12 have
                                                                                 been closed with the remainder
                                                                                 targeted for completion during FY11.




                  Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
     39
        


Management Statement on Resolved Audit Reports Over 12 Months
    Old with Final Action Pending as of September 30, 2010 
                                                         Disallowed Funds to be put
Report                                         Date         costs    to better use       Reason action not completed
Audit of Federal Income Taxes Withheld        7/30/07      NONE         NONE        Coordination required with another org.
from Railroad Retirement Annuities                                                  Four of the six recommendations have
(07-07)                                                                             been closed, with the rest targeted for
                                                                                    completion in FY11.

Fiscal Year 2007 Evaluation of Information 9/27/07         NONE          NONE        Policy and procedures still being
Security at the Railroad Retirement Board                                            developed. Two of the eight
(07-08)                                                                              recommendations have been closed
                                                                                     with the rest targeted for completion in
                                                                                     FY11.

Audit of Controls to Safeguard Sensitive      9/27/07      NONE          NONE        Coordination required with outside
Personally Identifiable Information (07-09)                                          contractor on 1 recommendation. Of
                                                                                     the 22 recommendations, 14 have
                                                                                     been implemented with work plans still
                                                                                     being developed for other
                                                                                     recommendations to be finished in
                                                                                     FY11.

Fiscal Year 2007 Financial Statement           3/6/08      NONE          NONE        The OIG is still assessing BFO’s
Audit Letter to Management (08-01)                                                   implemented enhanced controls for the
                                                                                     last 2 recommendations. Of the 25
                                                                                     recommendations, 23 have been
                                                                                     implemented.

Evaluation of Information Security for the    09/26/08     NONE          NONE        Documentation submitted to OIG for
RRB’s Financial Interchange Major                                                    review on one recommendation has
Application – Abstract (08-03)                                                       been accepted for implementation and
                                                                                     work continues on others. Of the 11
                                                                                     recommendations, 2 have been
                                                                                     implemented with work on the
                                                                                     remaining ones to be finished in 2011.

Fiscal Year 2008 Evaluation of Information 09/26/08        NONE          NONE        Coordination is still required with
Security at the RRB (08-05)                                                          outside contractor on one
                                                                                     recommendation and with another
                                                                                     organization on another
                                                                                     recommendation. Of the eight
                                                                                     recommendations, four have been
                                                                                     implemented with work on the
                                                                                     remaining ones to be finished in FY11.

Fiscal Year 2008 Financial Statement          03/24/09     NONE         $600,000     Of the 13 recommendations,
Audit Letter to Management (09-02)                                                   documentations submitted to the OIG
                                                                                     for 5 recommendations have been
                                                                                     accepted for implementation. Review
                                                                                     and updating of documentations along
                                                                                     with case reviews are currently being
                                                                                     performed on remaining
                                                                                     recommendations.




                   Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
     40
        


Management Statement on Resolved Audit Reports Over 12 Months
    Old with Final Action Pending as of September 30, 2010 
                                                      Disallowed Funds to be put
Report                                       Date        costs    to better use       Reason action not completed
Audit of Internal Control Over Accounts    03/31/09     NONE         NONE        Of the 18 recommendations, 14 were
Payable (09-03)                                                                  implemented. Work continues on the
                                                                                 remaining recommendations.

Audit of the Railroad Medicare Integrity 09/25/09       NONE         NONE       Of the 15 recommendations, 6 have
Program at Palmetto Government Benefits                                         been implemented and 1 rejected by
Administrators (09-04)                                                          the outside agency. Documentations
                                                                                were submitted for 4
                                                                                recommendations; however, OIG
                                                                                indicated further corrective action is
                                                                                needed. Coordination is required with
                                                                                outside agency on remaining
                                                                                recommendations.

Audit of the General and Application       09/30/09     NONE         NONE       Of the 20 recommendations, 12 have
Controls in the Financial Management                                            been implemented, 3 were rejected
Major Application System (09-05)                                                and of the 5 remaining, documentation
                                                                                was submitted to the OIG for
                                                                                implementation on 1 and work
                                                                                continues on the remaining.

Audit of the Railroad Retirement Board’s   09/30/09     NONE         NONE       Of the 9 recommendations, 4 have
Medicare Major Application System                                               been implemented and 2 were rejected
(09-06)                                                                         with work on the remaining ones to be
                                                                                finished in FY11.




                   Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
     41
  


            Appendix G – Reporting Requirements
     Act Reference       Inspector General Reporting Requirements              Page(s)
     Section 4(a) (2)    Review of Legislation and Regulations                     27
     Section 5(a) (1)    Significant Problems, Abuses, and Deficiencies              33
     Section 5(a) (2)    Recommendations With Respect to Significant                 33
                         Problems, Abuses, and Deficiencies
     Section 5(a) (3)    Prior Significant Recommendations Not Yet                   33
                         Implemented
     Section 5(a) (4)    Matters Referred to Prosecutive Authorities              4, 13
     Section 5(a) (5)    Instances Where Information Was Refused                 None
     Section 5(a) (6)    List of Audit Reports                                       29
     Section 5(a) (7)    Summary of Each Significant Report                      5 - 11
     Section 5(a) (8)    Statistical Tables on Management Decisions on               30
                         Questioned Costs
     Section 5(a) (9)    Statistical Tables on Management Decisions on               30
                         Recommendations That Funds be Put to Better
                         Use
     Section 5(a) (10)   Summary of Each Audit Report Over 6 Months                  12
                         Old for Which No Management Decision Has
                         Been Made
     Section 5(a) (11)   Description and Explanation for Any Significant         None
                         Revised Management Decision
     Section 5(a) (12)   Information on Any Significant Management               None
                         Decisions With Which the Inspector General
                         Disagrees



     Act Reference       Management Reporting Requirements                     Page(s)
     Section 5(b) (1)    Comments Deemed Appropriate                         Transmittal
                                                                                  Letter
     Section 5(b) (2)    Statistical Table on Final Action on Disallowed             36
                         Costs
     Section 5(b) (3)    Statistical Table on Final Action to Put Funds to           37
                         Better Use
     Section 5(b) (4)    Statement on Audit Reports With Final Action           38 - 41
                         Pending




              Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
42
  


            Appendix H – Acronyms
     Acronym       Explanation

     AABR          Average Account Benefits Ratio
     ABR           Account Benefits Ratio
     ACE           Affirmative Civil Enforcement
     AGA           Association of Government Accountants
     ARRA          American Recovery and Reinvestment Act of 2009
     CMS           Centers for Medicare and Medicaid Services
     FDIC-OIG      Federal Deposit Insurance Corporation, Office of
                   Inspector General
     FI            Financial Interchange
     FISMA         Federal Information Security Management Act of 2002
     FY            Fiscal Year
     KPMG          KPMG LLC
     MIP           Medicare Integrity Program
     NRRIT         National Railroad Retirement Investment Trust
     OA            Office of Inspector General for the Railroad
                   Retirement Board – Office of Audit
     OI            Office of Inspector General for the Railroad
                   Retirement Board – Office of Investigations
     OIG           Office of Inspector General for the Railroad
                   Retirement Board
     RRA           Railroad Retirement Act
     RRB           Railroad Retirement Board
     RRSIA         Railroad Retirement and Survivors’ Improvement Act
                   of 2001
     RUIA          Railroad Unemployment Insurance Act
     SSA           Social Security Administration
     SI            Sickness Insurance
     UI            Unemployment Insurance                                 




             Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
43
  


           Appendix I – Legal References
     Federal:
     Accountability Tax Dollars Act of 2002 – P.L. 107–289

     American Recovery and Reinvestment Act of 2009 – P.L. 111–5

     Conspiracy to Commit Health Care Fraud – 18 U.S.C. § 1349

     Dodd-Frank Wall Street Reform and Consumer Protection Act - P.L. 111–203

     False Claims Act – 31 U.S.C. §§ 3729 – 3733

     Federal Information Security Management Act of 2002 – 44 U.S.C. § 3531, et. seq.

     Government Performance and Results Act of 1993 – P.L. 103–63

     Health Care Fraud – 18 U.S.C. § 1347

     Inspector General Act of 1978, as amended – 5 U.S.C. App. 3

     Privacy Act – 5 U.S.C. § 552a

     Railroad Retirement Act – 45 U.S.C. § 231, et. seq.

     Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.

     Railroad Retirement and Survivors’ Improvement Act of 2001 – P.L 107–90

     Railroad Solvency Act of 1983 – P.L. 98–76

     Social Security Act – 42 U.S.C. § 301, et seq.

     Theft of Public Money/Government Funds/Government Property – 18 U.S.C. § 641

     Wire Fraud – 18 U.S.C. § 1343


     State:
     Falsifying Business Records – New York State Penal Code PL 175.10

     Grand Larceny – New York State Penal Code PL 155.25




              Semiannual Report to the Congress │ April 1, 2010 to September 30, 2010
44
 

                           REPORT

          FRAUD, WASTE, AND ABUSE




             




                  Call the OIG Hotline:
                         1-800-772-4258

                 E-mail: hotline@oig.rrb.gov

    The OIG cannot ensure confidentiality to persons who provide
    information via e-mail. Do not send information by e-mail that
                you do not want a third party to read.

                Write: RRB, OIG Hotline Officer
                       844 N. Rush Street
                 Chicago, Illinois 60611-2092
 


 
